               Department of Veterans Affairs
               Office of Inspector General



                     Office of Healthcare Inspections

Report No. 14-01288-145




       Combined Assessment Program 

             Summary Report 


  Construction Safety at Veterans Health 

        Administration Facilities 





May 8, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                                          Construction Safety at Veterans Health Administration Facilities



                                Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections evaluated
construction safety at Veterans Health Administration (VHA) facilities. The purpose of
the evaluation was to determine whether VHA facilities had developed effective
construction safety programs that provided a safe environment for patients, employees,
and visitors during construction and renovation activities in patient care areas.

We performed this review in conjunction with 27 Combined Assessment Program
reviews of VHA medical facilities conducted from October 1, 2012, through
September 30, 2013. We identified five opportunities for VHA facilities to improve
compliance.

We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that:

   	 Inspections are completed at the designated frequency and by required
      members, that all required elements are documented, and that construction sites
      comply with applicable VA and Occupational Safety and Health Administration
      requirements.
   	 Contractor tuberculosis risk assessments are conducted.
   	 Facilities establish Construction Safety Committees; develop and implement
      written policies addressing committee responsibilities; assure required committee
      membership and participation; and include in meeting minutes consistent
      documentation of inspection results, follow-up actions to resolve unsafe
      conditions, and tracking of actions to completion.
   	 Infection Control Committee meeting minutes include consistent documentation
      of construction-related infection control surveillance activities and any necessary
      follow-up actions to identified trends or problems.
   	 Designated facility staff receive required initial and biennial construction safety
      training.

Comments
The Under Secretary for Health concurred with the findings and recommendations.
(See Appendix A, pages 7–12, for the full text of the comments.) The implementation
plans are acceptable, and we will follow up until all actions are completed.




                                                               JOHN D. DAIGH, JR., M.D.
                                                              Assistant Inspector General for
                                                                Healthcare Inspections


VA OIG Office of Healthcare Inspections                                                                 i
                                               Construction Safety at Veterans Health Administration Facilities



                                                  Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections evaluated
construction safety at Veterans Health Administration (VHA) facilities. The purpose of
the evaluation was to determine whether VHA facilities had developed effective
construction safety programs that provided a safe environment for patients, employees,
and visitors during construction and renovation activities in patient care areas.

                                             Background 

Construction and related activities present a number of potential hazards to hospitalized
patients. Historically, organizations such as the Occupational Safety and Health
Administration (OSHA) and the Environmental Protection Agency have focused their
efforts on worker safety or the preservation of the environment. In the late 1990s,
infection prevention staff began to see the impact of unsafe construction activities on
patients. Organisms such as Legionella can affect certain high-risk patients and cause
serious infections.1 Subsequently, two organizations have published guides for
infection control (IC) during construction activities.2 In 2004, VHA published a directive
on safety and health during construction activities to ensure a safe environment for
patients, employees, and others (revised September 22, 2011).3 Joint Commission
standards and OSHA regulations also address safety during these activities.

                                Scope and Methodology 

We performed this review in conjunction with 27 Combined Assessment Program (CAP)
reviews of VHA medical facilities conducted from October 1, 2012, through
September 30, 2013. The facilities we visited were a stratified random sample of all
VHA facilities and represented a mix of facility size, affiliation, geographic location, and
Veterans Integrated Service Networks. OIG generated an individual CAP report for
each facility. For this report, we summarized the data collected from the individual
facility CAP reviews. The training record samples within each facility were not a
probability sample, and thus do not represent the entire employee or contractor
population of that facility. Therefore, the summary results presented in this report are
not generalizable to the entire VHA.

We reviewed Type C, Class III4 construction project documents and contractor and VA
employee training records. Selected projects for review included 1 at each of
23 facilities and 2 at each of 4 facilities for a total of 31 projects. We conducted physical
inspections of 28 construction sites. Three project sites were not inspected—one

1
  During construction activities, water systems may be inactive, which increases the possibility of stagnant water. 

This may lead to the growth of Legionella.

2
  The Association for Professionals in IC and Epidemiology and the Centers for Disease Control and Prevention.

3
  VHA Directive 2004-012, Safety and Health During Construction Activities, April 5, 2004. 

4
  Construction type based on IC risk assessment performed by members of the facility Construction Safety 

Committee prior to project start. 



VA OIG Office of Healthcare Inspections                                                                             1
                                          Construction Safety at Veterans Health Administration Facilities


project’s work was completed prior to our onsite review, a second project had work
being done in the attic penthouse of the building, and a third project involved planned
work in an administrative section of the facility. We used 90 percent as the general
level of expectation for compliance.

Inspectors conducted the reviews in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA OIG Office of Healthcare Inspections                                                                 2
                                              Construction Safety at Veterans Health Administration Facilities



                                      Inspection Results 

Issue 1:           Physical Inspections
The Construction Safety Committee is responsible for ensuring periodic construction
site hazard surveillance activities with appropriate membership, scope, and frequency
for each project as determined by the Construction Safety Officer and the
pre-construction risk assessment.5 Four (13 percent) of the 31 projects did not meet
surveillance inspections requirements. Two projects had site inspections initiated just
prior to our onsite reviews rather than at project start. Two other projects did not have
site inspections conducted with the required frequency and by all required members.

Inspection documentation must include the date and time of the inspection, the
members of the inspection team, deficiencies, the type of corrective action, and the time
and date of correction. The following surveillance inspection documentation was
consistently lacking:

          Time of inspection – 12 of 29 applicable projects
          Type of corrective action – 5 of 24 applicable projects
          Date of correction – 5 of 24 applicable projects
          Time of correction – 9 of 24 applicable projects

Facilities had high compliance with several of the VA and OSHA requirements for
construction sites, including continuous negative air pressure maintained in work area,
exhaust ducts (heating, ventilation, air conditioning) covered during demolition, and
chemicals property labeled (product name, hazard warnings, manufacturer). However,
we identified opportunities for improvement in the following areas:

          Temporary drywall barriers were not equipped with self-closing doors in metal
           frames at 3 of 23 applicable sites.
          Contractors were not wearing VA-issued identification badges at 4 of
           28 applicable sites.
          Material data safety sheet information for chemicals was not available within 3 of
           22 applicable sites.

We recommended that construction site inspections be conducted at the frequency
designated by the facility and with all required members and that inspection
documentation include all required elements. We also recommended that construction
sites comply with applicable VA and OSHA requirements.




5
    VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.


VA OIG Office of Healthcare Inspections                                                                     3
                                          Construction Safety at Veterans Health Administration Facilities


Issue 2:        Oversight
Pre-Construction Requirements

VHA requires that risk assessments for IC, general construction, and Interim Life Safety
be completed prior to starting work.6 All 31 projects met or exceeded the 90 percent
compliance threshold for these completed risk assessments.

VHA requires documentation of tuberculosis (TB) risk assessment for contractors, and
dependent on risk level, documentation of results of TB testing and follow-up of those
with positive results.7 One of the 31 projects was managed by only VA staff, so
contractor risk assessment was not completed. TB risk assessments were not
conducted for 12 of 30 projects (40 percent). Fifteen projects had a TB risk assessment
conducted, with low risk identified, so contractor TB skin testing was not required. All
three projects with identified risk had contractor TB skin tests results documented.
None of the results required follow-up actions.

Construction Safety and IC Committees

VHA requires that facilities establish a Construction Safety Committee responsible for
overseeing protection of patients, visitors, and employees from injury and infections
related to construction activities.8 Two facilities had not established this committee. VA
Police at 3 of 25 facilities and Employee Occupational Health at 5 of 25 facilities were
either not members of the Construction Safety Committee or did not regularly attend
meetings.     All other required members, including safety, IC, and local unit
representatives, generally participated in meetings.

The Joint Commission requires that Construction Safety Committee meeting minutes
document unsafe conditions identified during site inspections, follow-up actions, and
tracking of deficiencies to closure. We reviewed 6 months of Construction Safety
Committee meeting minutes for documentation of discussion regarding site surveillance
inspection results. Ten projects either had no unsafe conditions identified during
inspections or did not have the required inspections completed. Minutes for 7 of
21 projects did not include consistent documentation of inspection results or of follow-up
actions to resolve unsafe conditions and tracking of actions to completion.

The Joint Commission requires IC surveillance activities and follow-up, as needed, for
construction activities. We reviewed 6 months of IC Committee meeting minutes for
discussion regarding the 31 projects. Minutes for 12 projects (39 percent) did not
include consistent documentation of IC surveillance activities or of follow-up actions to
identified trends or problems.




6
  VHA Directive 2011-036.
7
  VHA Directive 2011-036.
8
  VHA Directive 2011-036.


VA OIG Office of Healthcare Inspections                                                                 4
                                          Construction Safety at Veterans Health Administration Facilities


Policy

VHA requires each facility to develop and implement a written policy addressing the
responsibilities of the Construction Safety Committee.9 Three of the 27 facilities had not
established a policy.

VA Master Specifications require that facilities establish policy regarding Interim Life
Safety Measures (ILSMs) and that projects have required ILSMs documented. All
27 facilities had established ILSM policy, and ILSMs were documented, as needed, for
projects.

We recommended that contractor TB risk assessments be conducted. We also
recommended that all facilities establish Construction Safety Committees; develop and
implement written policies addressing committee responsibilities; assure required
committee membership and participation; and ensure meeting minutes include
consistent documentation of inspection results, follow-up actions to resolve unsafe
conditions, and tracking of actions to completion. Additionally, we recommended that IC
Committee meeting minutes include consistent documentation of construction-related IC
surveillance activities and any necessary follow-up actions to identified trends or
problems.

Issue 3:        Training
Employees

VHA      requires    that   chief   engineers,     Contracting       Officer’s  Technical
Representatives/Construction Safety Officers, project engineers, project leads, and
safety program managers receive initial 30-hour VHA or OSHA training and at least
10 hours of construction safety-related training every 2 years.10            We reviewed
140 employees’ training files and found good compliance with documentation of initial
training. However, for the 95 employees in their positions for at least 2 years,
31 (33 percent) did not have the additional 10 hours of biennial training.

VHA requires that other committee/team members—IC, VA Police, the Green
Environmental Management System Coordinator, the Emergency Planning Coordinator,
local union safety representatives, employee occupational health, patient safety, and
contracting—receive initial 10-hour VHA or OSHA training and at least 10 hours of
construction safety-related training every 2 years.11 For the 171 employees whose
training files we reviewed, we found that 20 (12 percent) did not have documentation of
initial training. For the 66 employees in their positions for at least 2 years,
40 (61 percent) did not have the additional 10 hours of biennial training.

We recommended that designated facility staff receive initial and biennial construction
safety training.

9
  VHA Directive 2011-036.
10
   VHA Directive 2011-036.
11
   VHA Directive 2011-036.


VA OIG Office of Healthcare Inspections                                                                 5
                                          Construction Safety at Veterans Health Administration Facilities



                                          Conclusions 

Construction sites require appropriate oversight to ensure safety for patients,
employees, and visitors.    We identified opportunities for improvement in site
inspections, contractor TB risk assessments, committee oversight, training, and
documentation.

                                 Recommendations 

1. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that inspections are completed
at the designated frequency and by required members, that all required elements are
documented, and that construction sites comply with applicable VA and Occupational
Safety and Health Administration requirements.

2. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that contractor tuberculosis risk
assessments are conducted.

3. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that facilities establish
Construction Safety Committees; develop and implement written policies addressing
committee responsibilities; assure required committee membership and participation;
and ensure meeting minutes include consistent documentation of inspection results,
follow-up actions to resolve unsafe conditions, and tracking of actions to completion.

4. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that Infection Control
Committee meeting minutes include consistent documentation of construction-related
infection control surveillance activities and any necessary follow-up actions to identified
trends or problems.

5. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that designated facility staff
receive required initial and biennial construction safety training.




VA OIG Office of Healthcare Inspections                                                                 6
                                          Construction Safety at Veterans Health Administration Facilities
                                                                                            Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs 	                                   Memorandum

           Date:       April 25, 2014

          From:        Under Secretary for Health (10)

       Subject:     	 OIG Draft Combined Assessment Program (CAP)
                      Summary Report – Construction Safety at Veterans
                      Health Administration Facilities (2014-01288-HI-0419)
                      (VAIQ 7466123)

             To:       Assistant Inspector General for Healthcare Inspections (54)

       1. Thank you for the opportunity to review the draft CAP Summary
       Report, Construction Safety at Veterans Health Administration (VHA)
       Facilities. I have reviewed the draft report and concur with the report’s
       recommendations.

       2. Attached is the VHA corrective action plan for recommendations one
       through five.

       3. If you have any questions, please contact Karen M. Rasmussen, M.D.,
       Director, Management Review Service (10AR), at (202) 461-6643 or email
       VHA10ARMRS2@va.gov.




       Attachment




VA OIG Office of Healthcare Inspections                                                                 7
                                          Construction Safety at Veterans Health Administration Facilities


                    VETERANS HEALTH ADMINISTRATION (VHA)

                                            Action Plan
    OIG Draft Report, CAP Summary Report – Evaluation of Construction
                          Safety at VHA Facilities

Date of Draft Report: March 25, 2014


Recommendations/                                Status                               Completion
Actions                                                                              Date

OIG Recommendations

Recommendation 1. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
inspections are completed at the designated frequency and by required members, that
all required elements are documented, and that construction sites comply with
applicable VA and Occupational Safety and Health Administration requirements.

VHA Comments

Concur

VHA Office of Occupational, Safety, Health and Green Environmental Management
(GEMS) Programs (10NA8) conducts annual construction safety survey to verify
compliance with construction safety standards. VHA’s Safety Office will evaluate the
construction safety survey data and will develop an action plan to address facilities that
are non-compliant with applicable VA and Occupational Safety and Health
Administration requirements.

                                                Status: In progress        Target Completion Date:
                                                                           August 31, 2014

VHA Deputy Under Secretary for Operations and Management will issue a
memorandum to Network Directors to reiterate the requirement in VHA
Directive 2011-036, Safety and Health During Construction, for the construction safety
committee to conduct construction site inspections at the frequency designated by the
facility and by required members.        The memorandum will require inspection
documentation to be included in all required elements and the construction sites to
comply with applicable VA and Occupational Safety and Health Administration
requirement.

                                                Status: In progress        Target Completion Date:
                                                                           July 31, 2014




VA OIG Office of Healthcare Inspections                                                                 8
                                          Construction Safety at Veterans Health Administration Facilities


10NA8 will provide guidance to Occupational Safety and Facility Engineering staff on
construction safety inspection requirements including frequency of inspections, required
membership, and documentation.

                                                Status: In progress        Target Completion Date:
                                                                           March 31, 2015

To complete this action plan VHA will provide documentation of:

1) VHA’s Safety Office’s action plan to address facility non-compliance.
2) The Deputy Under Secretary for Operations and Management memorandum
   re-iterating requirements of VHA Directive 2011-036.
3) The training presentation provided to Occupational Safety and Facility Engineering
   staff on construction safety inspection requirements.

Recommendation 2. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
contractor tuberculosis risk assessments are conducted.

VHA Comments

Concur

VHA Deputy Under Secretary for Operations and Management will issue a
memorandum to Network Directors and Facility Directors to ensure contractor
tuberculosis risk assessments are conducted as required in VHA Directive 2011-036,
Safety and Health During Construction.

                                                Status: In progress        Target Completion Date:
                                                                           July 31, 2014

10NA8 will provide guidance to Occupational Safety and Facility Engineering staff on
construction safety program contractor tuberculosis risk assessment requirements.

                                                Status: In progress        Target Completion Date:
                                                                           March 31, 2015

To complete this action plan VHA will provide documentation of:

1) The Deputy Under Secretary for Operations and Management memorandum
   re-iterating requirements of VHA Directive 2011-036.
2) The training presentation provided to Occupational Safety and Facility Engineering
   staff on tuberculosis risk assessment requirements.

Recommendation 3. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
facilities establish Construction Safety Committees; develop and implement written
policies addressing committee responsibilities; assure required committee membership


VA OIG Office of Healthcare Inspections                                                                 9
                                          Construction Safety at Veterans Health Administration Facilities


and participation; and ensure meeting minutes include consistent documentation of
inspection results, follow-up actions to resolve unsafe conditions, and tracking of actions
to completion.

VHA Comments

Concur

VHA Deputy Under Secretary for Operations and Management will issue a
memorandum to Network Directors and Facility Directors to reiterate the requirement to
establish a Construction Safety Committee, to develop and implement written policies
addressing committee responsibilities, and to assure required committee membership
and participation. Additionally, the memorandum will address meeting minutes to
include consistent documentation of inspection results, follow-up actions to resolve
unsafe conditions, and tracking of actions to completion.

                                                Status: In progress        Target Completion Date:
                                                                           July 31, 2014

10NA8 will provide guidance to Occupational Safety and Facility Engineering staff on
establishing a Construction Safety Committee, committee policies, membership,
meeting minutes, documentation of inspection results, and resolving unsafe conditions.

                                                Status: In progress        Target Completion Date:
                                                                           March 31, 2015

To complete this action plan VHA will provide documentation of:

1) The Deputy Under Secretary for Operations and Management memorandum
   re-iterating requirements of VHA Directive 2011-036 regarding Construction Safety
   Committees.
2) The training presentation provided to Occupational Safety and Facility Engineering
   staff on Construction Safety Committee Requirements.

Recommendation 4. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
Infection Control Committee meeting minutes include consistent documentation of
construction-related infection control surveillance activities and any necessary follow-up
actions to identified trends or problems.

VHA Comments

Concur

VHA concurs with the recommendation for consistent documentation of
construction-related infection control surveillance activities and any necessary follow-up
actions to trends or problems, but believes that a more effective process for
documentation, communication, problem solving, and follow-up would occur through the


VA OIG Office of Healthcare Inspections                                                                10
                                          Construction Safety at Veterans Health Administration Facilities


Construction Safety Committee minutes instead of the Infection Control Committee
meeting minutes.

VHA agrees that Infection Prevention and Control (IP&C) plays a critical role in
construction, demolition, and renovation projects and consistent documentation of
construction-related infection control surveillance activities and any necessary follow-up
actions to problems is important. VHA Directive 2011-036, Safety and Health During
Construction, establishes that the Construction Safety Committee is composed of a
multidisciplinary team with representatives from several program areas. Infection
Control is one of the required team representatives. It is paramount that IP&C be
included in all aspects of the construction project to ensure a safe environment and
compliance with appropriate regulations and standards, Communication of infection
control issues after inspection of a project to the Infection Control Committee is
informative, however, authority to enforce Contractor compliance and effectively
implement recommended actions is under the purview of the Construction Safety Officer
and reporting and documentation through the Construction Safety Committee assures
the necessary follow-up for all surveillance activities identified.

To complete this action plan VHA will provide documentation of:

1) Infection control surveillance activities and any necessary follow-up action to
   identified trends or problems in the Construction Safety Committee meeting minutes
   for all facilities that have currently ongoing or newly planned construction.
2) Membership of infection prevention and control on the Construction Safety
   Committee for all facilities that have currently ongoing or newly planned
   construction.

                                                Status: In progress        Target Completion Date:
                                                                           October 31, 2014

Recommendation 5. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
designated facility staff receive required initial and biennial construction safety training.

VHA Comments

Concur

VHA Deputy Under Secretary for Operations and Management will issue a
memorandum to Network Directors, and Facility Directors to communicate a
requirement in VHA Directive 2011-036, Safety and Health During Construction, to
ensure designated facility staff receives required initial and biennial construction safety
training.

                                                Status: In progress        Target Completion Date:
                                                                           July 31, 2014




VA OIG Office of Healthcare Inspections                                                                11
                                          Construction Safety at Veterans Health Administration Facilities


VHA Office of Occupational, Safety, Health (10NA8) will provide access to appropriate
training content for Occupational Safety and Facility Engineering staff to complete
required initial and biennial construction safety training.

                                                Status: In progress        Target Completion Date:
                                                                           March 31, 2015

To complete this action plan VHA will provide documentation of:

1) The Deputy Under Secretary for Operations and Management memorandum
   re-iterating requirements of VHA Directive 2011-036 regarding training requirements
   for construction safety.
2) The training presentation provided to Occupational Safety and Facility Engineering
   staff on initial and biennial construction safety training.




VA OIG Office of Healthcare Inspections                                                                12
                                          Construction Safety at Veterans Health Administration Facilities
                                                                                            Appendix B

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG at
                        (202) 461-4720.
Contributors            Kathleen Shimoda, RN, BSN, Project Coordinator
                        Gail Bozzelli, RN
                        Donald Braman, RN, BSN
                        Paula Chapman, CTRS
                        Charles Cook, MHA
                        Stephanie Hensel, RN, JD
                        Francis Keslof, EMT, MHA
                        Alice Morales-Rullan, MSN, RN
                        Larry Ross, Jr., MS
                        Larry Selzler, MSPT
                        Laura Spottiswood, RN, MPH
                        Susan Tostenrude, MS
                        Katrina Young, RN, MSHL
Other                   Elizabeth Bullock
Contributors            Jeff Joppie, BS




VA OIG Office of Healthcare Inspections                                                                13
                                          Construction Safety at Veterans Health Administration Facilities
                                                                                            Appendix C


                                 Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
Office of Quality and Performance
National Center for Patient Safety
Office of General Counsel
Office of Medical Inspector
Veterans Integrated Service Network Directors (1–23)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                                14
